TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The IRS2GO Smartphone Application
                       Is Secure, but Development Process
                            Improvements Are Needed



                                         August 29, 2011

                              Reference Number: 2011-20-076




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


THE IRS2GO SMARTPHONE                                 software in the development of the IRS2GO
APPLICATION IS SECURE, BUT                            application. Management was aware of the
DEVELOPMENT PROCESS                                   requirement to request waivers, but advised it
IMPROVEMENTS ARE NEEDED                               made a risk-based decision not to pursue
                                                      waivers in consideration of time constraints for
                                                      the project. However, the IRS could not provide
Highlights                                            any documentation of the risk-based decision
                                                      and informed us that it was a verbal decision.
Final Report issued on August 29, 2011                TIGTA also found that documents required to
                                                      authorize releasing the IRS2GO application to
Highlights of Reference Number: 2011-20-076           the public were not obtained until after the
to the Internal Revenue Service Chief                 application was released. While the IRS2GO
Technology Officer.                                   application did not have any significant security
                                                      issues when it was released to the public, using
IMPACT ON TAXPAYERS                                   a system development approach that does not
The Internal Revenue Service (IRS) developed          comply with Office of Management and Budget
the IRS2GO mobile application for the Apple           Circular A-130 regulations increases the risk that
iPhone® and the Google Android® smartphones.          applications released to the public may contain
The application was successfully released to the      security or privacy weaknesses.
public on January 20, 2011, and 147,205 iPhone        WHAT TIGTA RECOMMENDED
users and 178,773 Android users had signed up
as of May 15, 2011, and March 1, 2011,                TIGTA recommended that the Associate Chief
respectively. Although the IRS2GO application         Information Officer, Enterprise Services, should
is secure, enhancements in the development            ensure that waivers are obtained prior to
process could be made for future mobile               deployment when applicable, risk-based
applications to ensure taxpayer privacy and           decisions are clearly documented, and updates
security.                                             to the Plan of Action and Milestones are
                                                      addressed within the appropriate time period. In
WHY TIGTA DID THE AUDIT                               addition, the Associate Chief Information Officer,
This audit was initiated because the IRS2GO           Enterprise Services, should coordinate the
application was the first mobile application          review of open source technologies for
developed by the IRS, and it allows the user to       consideration of approval for use in future
check on the status of his or her tax refund and      application development efforts and ensure that
receive tax tips. Our overall objective was to        all system development activities follow an
determine whether the IRS adequately tested           approach that is compliant with Office of
and secured the IRS2GO smartphone                     Management and Budget Circular A-130.
application.                                          The IRS agreed with all of TIGTA’s
WHAT TIGTA FOUND                                      recommendations. In developing future mobile
                                                      applications, the IRS plans to obtain the
The IRS2GO application adequately secures             appropriate waivers prior to deployment,
data communications and does not store                generate appropriate documentation for any
sensitive or Personally Identifiable Information      risk-based decision, timely address appropriate
on the smartphone. The IRS2GO application is          actions, and continue to review proprietary and
available only from the Apple App Store or the        open source technologies. The IRS also plans
Android Market. Smartphone users should               to adhere to the current limited-use approval
ensure they are downloading this application          process and the Office of Management and
from one of these two sites.                          Budget Circular A-130 for future pilot innovative
                                                      projects.
TIGTA found that appropriate processes were
not followed for using a nonapproved
programming language and open source
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 29, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The IRS2GO Smartphone Application Is Secure,
                             but Development Process Improvements Are Needed
                             (Audit # 201120023)

 This report presents the results of our review of the IRS2GO smartphone application. The
 overall objective of this review was to determine whether the Internal Revenue Service (IRS)
 adequately tested and secured the IRS2GO smartphone application that allows taxpayers to
 check the status of their refunds. This audit was initiated because the IRS2GO application was
 the first mobile application developed by the IRS. This review addresses the major management
 challenge of Modernization of the IRS.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.
                                The IRS2GO Smartphone Application Is Secure, but
                                 Development Process Improvements Are Needed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The IRS2GO Application Adequately Protects Data
          Transmissions and Personally Identifiable Information ............................... Page 3
          Apple iPhone® Programming Tools Were Not Approved ............................ Page 3
                    Recommendations 1 and 2: ................................................ Page 5

          The IRS2GO Application Was Made Available to the
          Public Prior to Receiving Authorization for Release .................................... Page 5
                    Recommendation 3:.......................................................... Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 9
          Appendix III – Report Distribution List ....................................................... Page 10
          Appendix IV – Glossary of Terms ................................................................ Page 11
          Appendix V – Management’s Response to the Draft Report ....................... Page 14
      The IRS2GO Smartphone Application Is Secure, but
       Development Process Improvements Are Needed




               Abbreviations

ELC      Enterprise Life Cycle
IRM      Internal Revenue Manual
IRS      Internal Revenue Service
                           The IRS2GO Smartphone Application Is Secure, but
                            Development Process Improvements Are Needed




                                           Background

Mobile phones have undergone several major developmental shifts since they first became
available to the public. The first mobile phones were heavy and expensive to operate. True
handheld cellular mobile phone technology became available in the United States early in the
1980’s and provided access to voice communications only. Later versions added the capability
of text messaging.
In the 2000’s, mobile phones became increasingly similar to small computers, with their own
operating systems. These phones not only provided voice and text communications, but also
allowed users access to the Internet via built-in web browsers and had the capability of running
small applications provided by the mobile phone manufacturer.
Currently, even more advanced mobile phones (hereafter called smartphones) like the
Apple iPhone® and the Google Android® not only provide their users with voice, text, and
web browsing capability, but also provide access to third-party applications with expanded
capabilities such as access to Global Positioning Satellite data, driving directions, road hazards,
and remote control of home appliances like web cameras and digital recorders for satellite and
cable television systems.
The Internal Revenue Service (IRS) recognized the fact that today’s smartphone users were not
being fully served via the current IRS web site and traditional phone assistance to access IRS
resources. Therefore, the IRS developed a smartphone application that would provide tax tips to
the smartphone user and allow the user to check on the status of his or her tax refund.
The IRS named its application IRS2GO, and it was launched on January 20, 2011, for the
Apple iPhone and the Google Android smartphones. Apple iPhone users can download the
application from the Apple App Store, while Android users can download it from the Android
Market. The IRS2GO application had signed up 147,205 iPhone users and 178,773 Android
users as of May 15, 2011, and March 1, 2011, respectively.1
This review was performed at the Modernization and Information Technology Services
organization’s Cybersecurity and Enterprise Services offices in New Carrollton, Maryland,
during the period February through June 2011. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our

1
  The number of users signed up for a smartphone app changes as additional users download the app or users remove
the app from their smartphone.
                                                                                                         Page 1
                       The IRS2GO Smartphone Application Is Secure, but
                        Development Process Improvements Are Needed



audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 2
                              The IRS2GO Smartphone Application Is Secure, but
                               Development Process Improvements Are Needed




                                        Results of Review

The IRS2GO Application Adequately Protects Data Transmissions and
Personally Identifiable Information
The Internal Revenue Manual (IRM) requires that applications using the Internet for the
transmission of sensitive information shall use virtual private networks,2 application-level
encryption, or another approved means to protect data. The transmission of nonpublic IRS
information, such as a Social Security Number, from a department server over the Internet shall
be protected using a secure protocol that provides Federal Information Processing Standards
Publication 140-2 or later compliant cryptography to prevent unauthorized disclosure and
recognize unauthorized changes during transmission. In addition, as a requirement for all
systems used to enter, process, store, display, or transmit sensitive information, the IRS shall use
only cryptographic modules that have been validated in accordance with Federal Information
Processing Standards 140-2 or later.
When the taxpayer requests the status of his or her refund, the IRS2GO application requires the
user to provide the Social Security Number of the account to be checked, the Filing Status shown
on the return in question, and the amount of the refund that the taxpayer expected to get back on
the return. We determined through our discussions and review of security testing documentation
that the IRS2GO application is encrypting all communications between the smartphone and the
IRS web servers that are processing the request for the status of the taxpayer’s refund. In
addition, the application does not store sensitive or Personally Identifiable Information on the
smartphone, and the application disables the copy and paste functions so the information cannot
be accessed or copied.
While the IRS2GO application is adequately securing taxpayer data, taxpayers should be careful
not to save their sensitive information in a nonsecure manner elsewhere on their smartphones.
The IRS application is available only from the Apple App Store or the Android Market.
Therefore, taxpayers who desire to use the IRS application should ensure they are downloading
the IRS2GO application from one of those two sites. Although the application is secure, we
identified several issues related to the development process.

Apple iPhone Programming Tools Were Not Approved
The IRS developed Programming and Source Code Standards that establish standards and
guidelines to promote the development of maintainable, portable, and reliable software

2
    See Appendix IV for a glossary of terms.
                                                                                             Page 3
                        The IRS2GO Smartphone Application Is Secure, but
                         Development Process Improvements Are Needed



applications in all IRS used/approved languages. A list of authorized open source languages and
libraries is available to developers, and a waiver process has been developed for those situations
where products not on the list need to be used.
The IRS also established guidelines to coordinate the assessment, development, maintenance,
and improvement of development controls. To manage deviations from these controls, a waiver
must be obtained. These guidelines also require that:
   •   A record of all exceptions and deviations shall be maintained.  
   •   There shall be no waivers or deviations from the controls established under the IRM
       without approval from the Software Quality Committee.  
   •   All new weaknesses are entered into appropriate Plan of Action and Milestones within
       1 month of identification for program-level weaknesses and those for Federal Information
       Processing Standards Publication 199 HIGH systems, and 2 months for weaknesses for
       other systems.  
On February 28, 2011, the IRS issued interim IRM guidelines implementing a new risk-based
decision process. According to the new risk-based decision policy, the IRS shall allow
exceptions to its own information technology security policies based on suitable justification and
a thorough assessment of evident and potential risks when a security weakness is discovered.
There are only two acceptable reasons for a risk-based decision: the IRM requirement is
technically or operationally not possible, or it is not cost-effective. Risk-based decisions shall be
tracked in a Plan of Action and Milestones as part of a system’s security authorization.
The IRS2GO iPhone application uses the Objective C programming language that is similar to
the approved C++ and C languages. It also has many differences and is defined as a separate
programming language. Additionally, the iPhone IRS2GO application uses an open source
library that has not been authorized for application development.
The IRS2GO application underwent a security code review conducted by an outside contractor
and a report of the results was issued on December 23, 2010. Although there were no security
vulnerabilities identified, the report discusses the fact that Objective C and an open source
library were in use for the iPhone IRS2GO application. The contractor also noted that a waiver
would be required for the open source library prior to the release of the application to the
Apple App Store. A Security Risk Assessment by the IRS Cybersecurity organization released
in October 2010 included a comment that nonapproved technologies were being used for the
Apple iPhone code and recommended that waivers be requested.
Management was aware of the requirement to request waivers for the application more than
2 months prior to the release of the application to the public, and despite the recommendations of
both the contractor that performed the code review and the IRS Cybersecurity organization staff,
the Enterprise Services organization did not request waivers for the use of these nonapproved
technologies. Management advised the Treasury Inspector General for Tax Administration that
                                                                                              Page 4
                        The IRS2GO Smartphone Application Is Secure, but
                         Development Process Improvements Are Needed



they made a risk-based decision not to pursue waivers in consideration of time constraints for the
project; however, the IRS could not provide any documentation of the risk-based decision and
informed us that it was a verbal decision. In March 2011, the IRS added the need to obtain
waivers for the use of nonapproved open source technologies to the Plan of Action and
Milestones.
While no significant security problems were identified, development of future smartphone
applications should follow approved processes to avoid introducing unnecessary risk into the
development process, which essentially could result in the development of vulnerable software.

Recommendations
Recommendation 1: The Associate Chief Information Officer, Enterprise Services, should
ensure that waivers are obtained prior to deployment, when applicable; risk-based decisions are
clearly documented at the time the decisions are made; and updates to the Plan of Action and
Milestones are addressed within the appropriate time period.
       Management’s Response: The IRS agreed with this recommendation. Enterprise
       Services will ensure that waivers are obtained prior to deployment of new mobile
       application, when applicable. In addition, the IRS will ensure proper documentation is
       generated for any risk-based decision based on IRS guidelines and appropriate actions are
       addressed timely.
Recommendation 2: The Associate Chief Information Officer, Enterprise Services, should
coordinate with the Enterprise Architecture organization and the Quality Software Committee to
review open source technologies for consideration of approval for use in future application
development efforts.
       Management’s Response: The IRS agreed with this recommendation. In
       accordance with current practices, Enterprise Services will ensure that future pilot
       innovative projects, such as IRS2GO, adhere to the established limited-use approval
       process. The Enterprise Architecture organization, the Quality Software Council, and
       other governing bodies will also continue to review proprietary and open source
       technologies to determine suitability for adoption into the IRS environment for future and
       current use.

The IRS2GO Application Was Made Available to the Public Prior to
Receiving Authorization for Release
Security accreditation is the official management decision given by a senior agency official to
authorize operation of an information system and to explicitly accept the risk to agency
operations, agency assets, or individual based on the implementation of an agreed upon set of
security controls. By accrediting an information system, an agency official accepts responsibility
                                                                                           Page 5
                        The IRS2GO Smartphone Application Is Secure, but
                         Development Process Improvements Are Needed



for the security of the system and is fully accountable for any adverse impacts to the agency if a
breach of security occurs. The Office of Management and Budget Circular A-130, Management
of Federal Information Resources, made a single person responsible for operational security or
the authority to operate.

The IRS has a sophisticated Enterprise Life Cycle (ELC) development process that it uses for
large application development projects. The ELC process is not suited for small application
development projects like the IRS2GO application that take only a couple of months to go from
planning to implementation. The IRS ELC Project Management office is working within the
applications development offices to develop more streamlined lifecycle processes for smaller,
faster paced developments. For this reason, the IRS piloted an agile project management
approach to develop the IRS2GO mobile application. However, documents required to authorize
releasing the IRS2GO application to the public were not obtained until after the application was
released because the IRS followed a pilot development process instead of an approved formal
ELC process.
   •   On January 20, 2011, version 1.0 of the IRS2GO application was made available to the
       public.
   •   On January 21, 2011, a minor change to the IRS2GO application resulted in version 1.01
       being released.
   •   On January 25, 2011, the IRS Authorizing Official and the IRS2GO Information System
       Owner both gave their approval for the IRS2GO application to go live.
   •   On February 23, 2011, the approval to forgo the Privacy Impact Assessment requirement
       was signed.
While the IRS2GO application did not have any significant security issues when it was released
to the public, using a system development approach that does not comply with Office of
Management and Budget Circular A-130 regulations increases the risk that applications released
to the public may contain security or privacy weaknesses.

Recommendation
Recommendation 3: The Associate Chief Information Officer, Enterprise Services, should
ensure that all system development activities follow an approach that is compliant with Office of
Management and Budget Circular A-130.
       Management’s Response: The IRS agreed with this recommendation. In
       accordance with current practices, Enterprise Services will ensure that all future system
       development activities using an agile or (rapid) project management approach are
       compliant with or effectively address the intent of the Office of Management and Budget
       Circular A-130.

                                                                                            Page 6
                              The IRS2GO Smartphone Application Is Secure, but
                               Development Process Improvements Are Needed



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS adequately tested and secured the
IRS2GO smartphone application that allows taxpayers to check the status of their refunds. To
accomplish our objective, we:
I.         Determined whether the IRS has developed adequate policies and procedures pertaining
           to developing and securing smartphone applications.
           A. Researched the IRS, Department of the Treasury, and National Institute of Standards
              and Technology guidelines for application development procedures to ascertain
              whether small applications like the IRS2GO application are covered.
           B. Interviewed the application developers and reviewed documentation to verify that the
              appropriate procedures and guidelines have been followed.
           C. Researched the responsibility that the IRS has toward protecting taxpayers from
              third-party applications that access IRS web services.
II.        Determined whether the IRS2GO application adequately protects taxpayer Personally
           Identifiable Information.1
           A. Verified through documentation review and discussions whether data transmissions
              are securely encrypted between the smartphone and the IRS web servers.
           B. Verified through documentation review and discussions whether taxpayer information
              is not being stored on the smartphone unless there is a significant need to maintain
              that data and it is securely encrypted.
III.       Determined whether the IRS thoroughly tested the IRS2GO application code before
           releasing it to the public.
           A. Reviewed the results of any code reviews performed by the application developers to
              ensure that coding issues were corrected or mitigated fully.
           B. Reviewed the results of any security testing performed by the Cybersecurity
              organization to ensure that all security issues were resolved or mitigated fully.




1
    See Appendix IV for a glossary of terms.
                                                                                                  Page 7
                       The IRS2GO Smartphone Application Is Secure, but
                        Development Process Improvements Are Needed



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Enterprise Services organization’s
policies and procedures for developing small applications and performing security testing. We
evaluated the controls by interviewing management and reviewing policies and procedures and
relevant supporting documentation.




                                                                                         Page 8
                      The IRS2GO Smartphone Application Is Secure, but
                       Development Process Improvements Are Needed



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Larry Reimer, Information Technology Audit Manager
Cari Fogle, Lead Auditor
Mark Carder, Senior Auditor
Daniel Oakley, Information Technology Specialist




                                                                                      Page 9
                     The IRS2GO Smartphone Application Is Secure, but
                      Development Process Improvements Are Needed



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Director, Privacy, Information Protection, and Data Security OS:P
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Director, Customer Service OS:CTO:AD:CS
Director, Web Services OS:CTO:ES:WS
Director, Security Risk Management OS:CTO:C:SRM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                Page 10
                        The IRS2GO Smartphone Application Is Secure, but
                         Development Process Improvements Are Needed



                                                                                Appendix IV

                               Glossary of Terms

            Term                                           Definition
Agile Project Management        An iterative method of determining requirements for software
                                and for delivering projects in a highly flexible and interactive
                                manner, where deliverables are submitted in stages. One
                                difference between agile and iterative development is that the
                                delivery time in agile is in weeks rather than months.
Application-Level Encryption    Transport Layer Security and its predecessor, Secure Sockets
                                Layer, are cryptographic protocols that provide
                                communications security over the Internet. The Transport
                                Layer Security protocol allows client/server applications to
                                communicate across a network in a way designed to prevent
                                eavesdropping and tampering. Several versions of the
                                protocols are in widespread use in applications such as web
                                browsing, electronic mail, Internet faxing, and instant
                                messaging.
Cryptography                    The practice and study of hiding information. Modern
                                cryptography intersects the disciplines of mathematics,
                                computer science, and electrical engineering. Applications of
                                cryptography include Automated Teller Machine cards,
                                computer passwords, and electronic commerce.
Enterprise Life Cycle           Integrates the management, business, and engineering life
                                cycle processes that span the enterprise to align its business
                                and information technology activities. It generally refers to an
                                organization’s approach for managing activities and making
                                decisions during ongoing refreshment of business and
                                technical practices to support its enterprise mission.




                                                                                         Page 11
                          The IRS2GO Smartphone Application Is Secure, but
                           Development Process Improvements Are Needed




            Term                                           Definition
Federal Information              Issued by the National Institute of Standards and Technology
Processing Standard              to coordinate the requirements and standards for cryptography
Publication 140-2 Series         modules that include both hardware and software components.
                                 The cryptographic modules are produced by the private sector
                                 or open source communities for use by the Federal
                                 Government and other regulated industries that collect, store,
                                 transfer, share, and disseminate sensitive but unclassified
                                 information.
Federal Information              Standards to be used by all Federal agencies to categorize all
Processing Standards             information and information systems collected or maintained
Publication 199                  by or on behalf of each agency based on the objectives of
                                 providing appropriate levels of information security according
                                 to a range of risk levels. The potential impact is HIGH if the
                                 loss of confidentiality, integrity, or availability could be
                                 expected to have a severe or catastrophic adverse effect on
                                 organizational operations, organizational assets, or
                                 individuals.
Open Source Library              Libraries contain code and data that provide services to
                                 independent programs. This allows the sharing and changing
                                 of code and data in a modular fashion. Open source describes
                                 a broad general type of software license that makes source
                                 code available to the general public with relaxed or
                                 nonexistent copyright restrictions.
Personally Identifiable          Refers to information that can be used to uniquely identify,
Information                      contact, or locate a single person or can be used with other
                                 sources to uniquely identify a single individual.
Plan of Action and Milestones    The process of planning and identifying the tasks necessary to
                                 reduce the risks of each weakness found in an information
                                 technology system. It documents the remedial actions taken to
                                 address any deficiencies in the security policies and monitors
                                 the progress of corrective actions.




                                                                                         Page 12
                         The IRS2GO Smartphone Application Is Secure, but
                          Development Process Improvements Are Needed




             Term                                         Definition
Privacy Impact Assessment       The IRS conducts a Privacy Impact Assessment on
                                information systems that collect Personally Identifiable
                                Information. Performing Privacy Impact Assessments ensures
                                that the public is aware of the information collected by the IRS
                                about them, any impact these systems have on personal
                                privacy is adequately addressed, and the IRS collects enough
                                personal information to administer its programs and no more.
Security Authorization          A comprehensive assessment of the management, operational,
                                and technical security controls in an information system, made
                                in support of security accreditation, to determine the extent to
                                which the controls are implemented correctly, operating as
                                intended, and producing the desired outcome with respect to
                                meeting the requirements for the system.
Sensitive but Unclassified      A designation of information in the Federal Government that,
Information                     though unclassified, often requires strict controls over its
                                distribution.
Virtual Private Networks        A secure way of connecting to a private Local Area Network
                                at a remote location, using the Internet or any insecure public
                                network to transport the network data packets privately, using
                                encryption.
Web Server                      Can refer to either the hardware (the computer) or the software
                                (the computer application) that helps to deliver content that
                                can be accessed through the Internet.




                                                                                        Page 13
       The IRS2GO Smartphone Application Is Secure, but
        Development Process Improvements Are Needed



                                                  Appendix V

Management’s Response to the Draft Report




                                                          Page 14
The IRS2GO Smartphone Application Is Secure, but
 Development Process Improvements Are Needed




                                                   Page 15
The IRS2GO Smartphone Application Is Secure, but
 Development Process Improvements Are Needed




                                                   Page 16
The IRS2GO Smartphone Application Is Secure, but
 Development Process Improvements Are Needed




                                                   Page 17
